IN THE
SUPREME COURT OP THE UNITED STATES
No.
BURTON LEE SMITH
Petitioner,
VS.
ADMINISTRATOR NEW JERSEY STATE PRISON, et al.
Respondent.

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for
a writ of certiorari without prepayment of costs and to proceed
in forma pauperis.
[X] Petitioner has previously been granted leave to proceed
in forma pauperis in the following court(s):
NEW

JERSEY

SUPERIOR

COURT-LAW

DIVISION,

NEW

JERSEY

SUPERIOR

COURT-APPELLATE DIVISION, NEW JERSEY SUPREME COURT, UNITED STATES
DISTRICT COURT FOR THE THIRD CIRCUIT, UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT
Petitioner's
attached hereto.

declaration

in

support

of

this

Dated: September 8, 2020
Smith
Petitioner

motion

is

Disability (such as
social security,
insurance payments)

$ N/A

$ N/A

$ N/A

$ N/A

Public Assistance (such
as welfare)

$ N/A

$ N/A

$ N/A

$ N/A

Other (specify): Prison

$

$ N/A

$ N/A

$ N/A

Total monthly income

$

$ N/A

$ N/A

$ N/A

2. List your employment history, most recent employer first.
(Gross monthly pay is before taxes or other deductions.)
Employer
Monthly Pay

Address

Dates of Employment

Gross

N/A
3. List your spouse's employment history, most recent employer
first. (Gross monthly pay is before taxes or other
deductions.)
Employer
Monthly Pay

Address

Dates of Employment

Gross

N/A
4. How much cash do you and your spouse have?

$

Below, state any money you or spouse have in bank accounts
or in any other financial institution.
Financial Institution

Type of
Account

Amount you
have

Amount your
spouse has

N/A
5. List the assets, and their values, which you own or your
spouse owns. Do not list clothing and ordinary household
furnishing.
N/A
6. State every person, business, or organization owing you or
your spouse money, and the amount owed.
N/A
7. State the persons who rely on you or your spouse for support.
N/A

2

'*%

t

,

8. Estimate the average monthly expenses of you and your family.
Show separately the amounts paid by your spouse. Adjust any
payments that are made weekly, biweekly, quarterly, or
annually to show the monthly rate.
N/A
V?

9. Do you expect any major changes to your monthly income or
expenses or in your assets or liabilities during the next
12 months? NO
10. Have you paid - or will you be paying - an attorney any
money for services in connection with this case, including
the completion of this form? NO
11. Have you paid - or will you be paying - anyone other than
an attorney (such as a paralegal or a typist) any money
for services in connection with this case, including the
completion of this form? NO
12. Provide any other information that will help explain why
you cannot pay the cost of this case.
I am a prisoner housed at New Jersey State Prison, in
Trenton, New Jersey and I only received state-pay which is $ .00
a month, which fines is deducted from that and what is left I
have to buy my own hygiene products, such as (toothpaste,
deodorant, soap etc.)
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on:

September 8

, 2020

Burton Lee Smith
Petitioner

3

